                              NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




     OFFICE OF
 INSPECTOR GENERAL




Date:         June 24, 1997

To:           I96040024

From:                          )Special Agent

Via:         41
              -                Special Agent-in-Charge

Re:            Resolution of Case


O n March 25, 1996, we received an allegation
                                            -      that D     r     .   o f the University of
                                    was misspending NSF and National Aeronautics and space
~ d m i n i s t r a t i o n < grant
                              ~ ~ ~ ~and
                                      ) contract funds by charging the NSF grants for NASA
related work and vice versa, was using an illegal alien to perform work on the projects, and
allowed the employees he supervised to falsify their timecards. Since the same allegation was
forwarded by the complainant to the NASA Office of Inspector General (OIG), we
coordinated our investigation with their                  field office.

Initially, we obtained and reviewed-         account summaries for NSF grant          ,
          ,       ,       , and the last ten travel vouchers submitted by   under any
NSF grant as of August 1996. Through these reviews we found no evidence of misspending
or fraud.

We also examined the Federal Demonstration Project (FDP) rules which govkrned t h m
NSF and NASA projects and concluded tha-was             allowed, without prior approval or
notification, to use NSF grant funds for any related NASA or other federal project on which
      was the Principal Investigator.

Additional investigation by NASA 01G determined that-ad        mischarged $2,433.60 of
one of      s employees NSF salary to a NASA project, paid back-pay to an illegal alien
working on the NASA contract by falsifying time cards and paying him only when he
                another employee improperly made $28.80 worth of copying on
                (purchased for use on the NSF and NASA projects) without reimbursing
                OIG's request (as approved by the U.S. Attorney's Office (USAO) for the

                audit agency for        began an audit of
                DHHS auditors reviewed the
                                                4
                                                                                               -
                received his immigration documents allowing him to work in the United States, and that
                                                                                              photocopiers
                                                                                                Per NASA

                             ), the Department of Health and Human Services (DHHS), the cognizant federal
                                                               s grants. This audit was canceled after the
                                                   rules and concluded that the rules allowed the kinds of
                expenditures that NASA OIG ad been investigating and had requested be audited (i.e.
                expenses made for the NSF grant being charged to the NASA grant and vice versa).

                Based on the closing of the audit by DHHS, NASA OIG and the USAO determined that
...   - -   .   they
                  . - had insufficient resources to devote._to this case at this time. Due.-to
                                                                                             -
                                                                                               the lack of evidence
                to show any wrongdoing
                                    -       and  the fact  that the  NASA     OIG   and USAO    are resolving their
                cases, further investigation is not warranted at this time. This case is closed.
